NO. _________
IN THE

Supreme Court of the United States
COVERALL NORTH AMERICA, INC.,
Petitioner,
v.
CARLOS RIVAS, IN HIS CAPACITY AS
PRIVATE ATTORNEY GENERAL REPRESENTATIVE,
Respondent.

On Petition for Writ of Certiorari to the
United States Court of Appeals for the Ninth Circuit

CERTIFICATE OF COMPLIANCE

NORMAN M. LEON
Counsel of Record
DLA PIPER LLP (US)
444 West Lake Street, Suite 900
Chicago, Illinois 60606-0089
(312) 368-4000
NANCY NGUYEN SIMS
DLA PIPER LLP (US)
2000 Avenue of the Stars, Suite 400 North Tower
Los Angeles, California 90067-4704
(310) 595-3008
Counsel for Petitioner

EAST\184497693.1

1
As required by Supreme Court Rule 33.1(h), I certify that the Petition for a
Writ of Certiorari contains 6,503 words, excluding the parts of the petition that are
exempted by Supreme Court Rule 33.1(d). I declare under penalty of perjury that the
foregoing is true and correct.

Dated:

August 20, 2021

Norman M. Leon
Counsel of Record
DLA PIPER LLP (US)
444 West Lake Street, Suite 900
Chicago, Illinois 60606-0089
(312) 368-4000
Nancy Nguyen Sims
DLA PIPER LLP (US)
2000 Avenue of the Stars
Suite 400 North Tower
Los Angeles, California 90067-4704
(310) 595-3000

Counsel for Petitioner
COVERALL NORTH AMERICA, INC.

